IN THE
OF THE UNITED STATES
COURT
E
SUPREM
No.
DR. USHA JAIN AND MANOHAR JAIN
Petitioners,
V.

DAVID BARKER, MARY BETH VALLEY,
MICHAEL FURBUSH and ROETZEL &
ANDRESS, L.P.A.,
Respondents,

CERTIFICATE OF SERVICE
Undersigned Plaintiffs HEREBY CERTIFY that on this 16th day of May 2019, three copies
of the attached Application is sent via Email to Office of the Clerk, Supreme Court of United
States, Washington D.C. 20543 for an Extension of Time to File a Petition for Writ of Certiorari to
Fifth District Court of Appeals of the State of Florida for the Eleventh Circuit and were served
the copy to attorney Thomas Wert and Defendant Michael Furbush of Dean Mead Johnson, 420
South Orange Avenue, suite #700 Orlando, FL 32801 and attorney Erich Schuttauf via email.

Dr. Usha Jain and Manohar Jam
4800 S. Apopka Vineland Road, Orlando, FL 32819
Telephone: (407) 876-5555
Fax: (407) 876-5557
Email: drjainproselitigantoutlook.com

ri

